oCfo\ /<2/
At£>

2.t>- IC?^ (
IN THE SUPREME COURT OF
THE UNITED STATES

Paul E. Robinson
Petitioner,
v.

Denis McDonough, Secretary of Veterans
Affairs.
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Federal
Circuit

PETITION FOR A WRIT OF CERTIORARI

Paul E. Robinson, Pro’se Petitioner
5150s. 18th PL Apt #219
Phoenix Arizona, 85040
602-687-2566/esquire lwi@gmail.com

RECEIVED
JUN - 7 2021

QUESTIONS PRESENTED
Congress has established a veteran- benefits
system that is uniquely pro-claimant. In
veterans-benefit cases, every statutory and
regulatory presumption fajvors lthe veteran, this
includes (Fed Cir. 2009) finding that “Veteran’s
disability benefits are non-discretionary,
statutorily mandated benefits.” These values
and requirements are intendent to be
monitored and maintained thru the process of
appeal by the veteran thru the creation under
article 1 of the constitution of the Court of
appeals for Veterans claims. The questions
presented are:
1) Did the court of appeals violate
constitutional rights of “Due process” and
“Equal protection” when it deferred to the
BVA and failed to review according to 38
U.S.C.#7261 as petitioned by the veteran.
2) Whether the court of appeals erred in
accepting a JMR that was rejected, by the
veteran, leading to the abandonment of
issues favorable to the veteran.
• 3) Should “Auer Deference” be repealed when it
leads to abuse of discretion.

LIST OF PARTIES

Board of Veterans Appeals/Dept, of Veterans
affairs/July 6, 2018/No.08-31 884

United States Court of Appeals for Veterans
Claims/October 31, 2019/No. 18-4296

United States Court of Appeals for the Federal
Circuit/January 8, 2021/No.2020-1969

Paul E. Robinson/Appellant,
v.
Robert L. Wilkie, Secretary of Veterans
Affairs/Appellee

RELATED CASES
Appendix(A)
Robinson v. Wilkie, No. 2020-1969, United
States Court of Appeals for the Federal Circuit.
Judgement entered Jan. 8, 2021.

Appendix(B)
Robinson v. McDonough, No. 2020-1969
United States Court of Appeals for the Federal
Circuit. Petition for rehearing March 1, 2021.
Mandate March 8, 2021
Appendix(C)
Robinson v. Wilkie, No. 18-4296,United States
Court of Appeajls for Veterans Claims
Judgement entered Oct. 31, 2019
Appendix(D)
Robinson v. Wilkie, 18-4296, United States
Court of Appeals for Veterans Claims
Panel decision: April 1, 2020
Appendix(E)
Board of Veterans Appeals, No.08-31 884
Decision date: July 6, 2018
Appendix(F)
Robinson v. McDonald, No.13-2403,United
States Court of Appeals for Veterans Claims
Decision date: Dec. 31, 2013

TABLE OF AUTHORITIES
Beaty v. Brown,
6 Vet. App.532(1994)
Russell v. Principi,
3 Vet. App.310,313 (1992)
Friscia v. Brown,
7 Vet. App.294,297 (1994)
Robersok v. Principi, No. 00-7009,2001 U.S. App.LEXIS
11008 (Fed. Cir. May 29,2001)
Cushman v. Shinseki,576 F.3d 1290,1298
(Fed.Cir.2009)
Mariano v. Principi, 17 Vet. App. 305,313 (2003)
United States v. U.S. Gypsum Co.333 U.S. 364,395 68
S. ct525,92 L.Ed 746 (1948)
Sanchez-Benitez v. Principi, 259 F.3d.l356,1360(Fed.
Cir.2001)
Thun v. Peake,22 vet. App.Ill (2008)
Nolen v Gober, 14 Vet. App. 183,184 (2000)
Young v. Wilkie, 31 Vet.App.51 (Mar.11,2019)
Carter v. Shenseki,26 Vet. App. 534 (2014)
Serra v. Nicholson, 19Vet.App. 268,274 (2005).
PTSD: National Center for PTSD
Posttraumatic stress Disorder and Co-Occurring
Substance Use Disorder

Petition for A Writ of Certiorari

Petitioner: Paul E. Robinson, respectfully
petitions for a writ of certiorari to review the
judgement of the United States Court of
Appeals for the Federal Circuit in this case.

OPINIONS BELOW
The opinion of the United States Court Ojf
Appeals for the Federal Circuit in No. 18-4296
appears at appendix(A) to the petition and can
be found at “Robinson v. Wilkie” No. 184296,2019 WL 5607902 at 1
(Vet.App.Oct.31,2019)
The orders from the United States Court of
Appeals for the Federal, petition for Panel
rehearing, and appears at appendix (B) and is
unpublished.

The opinion of the United States Court of
Appeals for Veterans Claims in No. 18-4296,
appears at appendix (C ) and is designated for
electronic publication only.

JURISDICTION
The date on which the United States Court of
Appeals for the Federal Circuit entered
Judgement was January 8th, 2021
A timely petition for rehearing was denied by
the United States Court of Appeals for the

Federal circuit on March 1, 2021. A copy of the
order denying rehearing appears at appendix (
)

The jurisdiction of this court is invoked under
28 U.S.C. #1254 (1)
Constitutional and Statutory provisions
involved.

1) U.S. Constitution, 5th amendment “No one shall be
“Deprived of life, liberty or property with-out due
process of law.”
2) U.S. Constitution, 14th amendment “No state shall
make or enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of
life, liberty, or property, with-out due process of law;
nor deny to any person with-in its jurisdiction the
equal protection of the laws.
3) 38 USC # 5107 (Benefit of the Doubt) “The
Secretary shall consider all information and lay and
medical evidence of record in a case before Secretary
with respect to benefits under laws administered by
the Secretary. When there is an approximate
balance of positive and negative evidence regarding
any issue material to the determination of a matter,
the Secretary shall give the benefit of the doubt to
the claimant.
4) 38 USC # 7261 (4) “In the case of a finding of
material fact adverse to the claimant made in
reaching a decision in a case before the Department
with respect to benefits under laws administered by
the Secretary, hold unlawful and set aside or
reverse such findings if the finding is clearly
erroneous, arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.

5) 38 CFR* 3.321(b)(1) “An extra-schedular evaluation
is to be applied to an individual service connected
disability when the disability is so exceptional or
unusual that it makes application of the regular
rating schedular impractical” “The governing norms
in these exceptional cases is a finding by the
Director of Compensation Service or delegate that
application of the regular schedular standards is
impractical because the disability is so exceptional
or unusual due to such related factors as marked
interference with employment or frequent periods of
hospitalization.”
6) 38 CFR*20.1403 “A clear unmistakable error is a
very specific and rare kind of error. It is the kind of
error, of fact or law, that when called to the
attention of later reviewers compels the conclusion,
to which reasonable minds could not differ, that the
results would have been manifestly different but for
the error.”
7) 38 CFR 4.10 “The basis of disability evaluation is
the ability of the body as a whole or of the psyche, or
of the body to function under the ordinary
conditions of daily life including employment.” “It
will be remembered that a person may be too
disabled to engage in employment although he or
she is up and about and fairly comfortable at home
or upon limited activity.
8) M21-1, part 1,Chapter 5, Section G (June 23,2015)
“If the Board of Veterans Appeal (BVA) grants a
motion for reconsideration (MFR), a motion to
vacate, or a motion for revision based on clear
unmistakable error (CUE), the action has the effect
of vacating BVA’s original decision(s) on the issue (s)
9) Administrative Procedures Act: The APA directs
reviewing courts to “compel agency action
unlawfully withheld or unreasonably delayed” and
to “hold unlawful and set aside agency action,
finding, and conclusions” that are:
A) Arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.

B) Contrary to constitutional right, power,
privilege, or immunity.
C) In excess of statutory jurisdiction, authority or
limitations or short of statutory right.
D) Without observance of procedure required by
law.

Statement of the Case
Total disability has been an issue in this case since
2000, when documentation of total disability was
granted by the SSA.VA claims were initiated in 2000
for PTSD, Knee pain, and GERD. I served honorably on
ADT (Active duty for training) from Dec. 1976 to April
1977, and from May 1978 to Aug. 1979 as a Clinical
Specialist. TDIU was first granted in 2009 along with
Major depressive disorder rated at 50%, an earlier
effective date has been in dispute since then, though
the VA has only acknowledged an appeal of earlier
effective date for major depressive disorder, the reality
is, if I am unaware of such things as “Inextricablyintertwined” or “not a stand-alone claim” it would not
be mentioned, if I fail to bring up these issues in this
process, it will be considered abandoned or not for
consideration. PTSD was denied by the VA in 2005
with-out a comp, and pension exam, however there
were 3 Medical professionals that diagnosed PTSD in
2000, as did the SSA.
In 2013 my claim first went to the CAVC (No. 13-2403).
I had an Attorney. Dec. 11,2013 he was part of a
“Briefing conference” that same day he wrote a letter of
With-drawl in 30 days, however, didn’t mail it until
Jan. 17, 2014.On Feb. 7,2014 the BVA issued a decision

on the issue of “Earlier effective date” for the MDD,
considered a CUE, and simply referred to it as “Extraschedular’. On Feb. 11,2014 my Attorney with-drew,
leaving me with the challenge of appealing the TDIU,
or loosing it as considered abandoned, this attorney
decided to withdraw rather than advocating the joint
nature of MDD and TDIU. (intertwined/not stand alone
claim).
This would be repeated in 2018, the second time my
claim is before the CAVC, a new attorney would have a
conference! on Jan. 9,2018, he would have this
conference after not responding to me for 30+ days. On
Jan. 10,2018 I would receive a copy of a JMR, that
would narrow the scope of the remand, (Carter v.
Shinseki,26 Vet.App.534 (2014) ignoring the issue of
the CUE, and possible abandonment of this issue .My
attorney was aware of my health issues, and I
reminded him that this kind of claim won’t survive
me.(Serrav. Nicholson, 19 Vet.App. 268,274 (2005).
That attorney was given notice, on that day, his
services were not need. I rejected the JMR. A JMR
could set this claim back another 10 years. If he was
willing also to ignore issues that were in my favor, it
was unacceptable. The CAVC should not be honoring a
JMR that was rejected by me.
The CUE issue: (38 CFR#20-1403-Rule 1403) (Russell
v. Principi, 3 Vet.App.310,313-14 (1992) (Enbanc) The
Board remanded the issue of earlier effective date for
the MDD (With-out TDIU) on April 16,2013. What the
examiner came back with was evidence of treatment for
PTSD in 1977(active duty) and referenced MDD as
chronic and permanent. In the intro by the AMC
(3/6/14) states “the BVA made their decision on your
appeal” On page 6 of the AMC decision, the Board
acknowledges that the issue of MDD has remained
pending since 2000, there-fore not a un-appealed final
decision eligible for a CUE claim. The only issue that
could be a CUE (Clear unmistakable error) is the final
PTSD, RO (Regional Office) decision in 2005, and it is

this decision that is characterized as “Extra schedular”
with-out specifying a PTSD rating.
The Board and Examiners would frequently attempt to
attack my character by mentioning drugs and alcohol
and 5 hospitalizations for depression and SUD
(Substance Use Disorder) which is frequently
associated with PTSD and has higher comorbidities
with poorer treatment outcomes, however they ended
up defining “Extra-schedular” at 100% for the period in
question, at the very least it indicated that “Benefit of
the doubt”(38 CFR *4.7) was clearly established in my
favor. Complicating this issue is that a CUE can only
be claimed once for each decision. (Hillyard v.
Shinseki,24 Vet.343,354 (2011); CFR. #20.1409 (c).
Over the course of many years the claims process, to a
pro’se claimant is an ever evolving learning process,
where-as the issue of the “CUE” and “Extraschedular”
were clear, the layers which seem deceptive were not
understood until now ;e.g. (PTSD being the actual
CUE, and considered “Extra-schedular”(38 CFR *3.321
(b) not to mention being ignored by fading to Rate). The
July 6, 2018 BVA decision ignores the impact of the
“CUE” or any “Extra-schedular” decision addressing
the PTSD, and there is no mention anywhere in this
document. The resulting rating would have been ’’Total
disability” if not demonstrating greater disability in
2000 than was acknowledged in 2009. Entitlement to
total disability or TDIU was clearly demonstrated at
this time, and the Secretary has unlawfully-withheld
this benefit since that time, (6 years ago)
The CAVC: It is an established (and acknowledged by
the BVA) fact that there was very little medical
documentation during the period 2000-2008. What the
BVA chooses not to acknowledge is that the VA refused
me treatment between 1999 and 2007. No
contemporaneous comp, and pension exam was
triggered for the claim of PTSD in 2000. The VA cannot
overcome these errors, VA examiners cannot produce
any evidence, as distinguished from mere conjecture.
(Friscia v. Brown, 7 Vet. App. 294 (1994). Evidence

before 2000, 5 hospitalizations/Depression and SUD,
(38 CFR3.321(b)(l)”provides for an extra-schedular
evaluation to account for an exceptional or unusual
disability” involving “Marked interference with
employment or frequent periods of hospitalization”.,
and upon re-examination in 2009 TDIU was granted.
The Board also fails to acknowledge that the surgery on
my bilateral knee’s wasn’t until 2008, surly a factor in
my disability between 2000 and 2008.
These facts are important to prove “Entitlement” to
“Non-discretionary, statxitorily mandated benefits”
(Cushman v. Shinseki,576 F.3d 1290 (2009) and a right
to “Due process” This also is to say that this veteran is
negatively impacted by the CAVC failure to review
according to (38 U.S.C.*5107), APA. The CAVC actions
could also be seen as a violation of “Section 242 of Title
18 (U.S.C.) It is a crime for a person acting under color
of law to willfully deprive a person of a right or
privilege protected by the Constitution or laws of the
United States”.

Reason for Granting The Petition
This case is over 20 years old, numerous errors
by the VA has hindered the resolution of this
claim. When the Federal courts defer to agency
action it is under the presumption that the
agency has greater knowledge about technical
policy details than judges, however blind
deference can lead to abuse and injustice in the
adjudication of claims. In this case the CAVC
makes a statement to justify a JMR, the
statement “Vacatur and remand were
warranted because the board decision relied on
evidence of (Sedentary work) prior to July 1,
2008”. No-where in the board decision does this
statement appear, as a matter of fact the board

states on page 14 of its decision “even though
the record reflects that the veteran has not
worked 2000- 2008”. The intent of appealing to
the Federal circuit is because the Agency
decision is questioned. “To remand is not to
prevail, it is to repeat” Congress states “Final
decisions of the BVA may be appealed to the
U.S. Court of Appeals for Veterans Claims
which is an independent federal court, entirely
separate froni. the VA”. Auer deference negates
this separation. In this case it might be
reasonable to question whether this was
“Deference” or “Abuse of discretion” the court
has a responsibility to a “Claimant” as well as
an agency, and cannot arbitrarily follow the
lead of an agency with no consideration of the
pleadings of a claimant. Acts of impunity can
become common when the Federal courts fail
the congressional intent of judicial review. To
quote the Federal Court in “Elkins v. Gober” ~
”a veteran who depends on an award as a
substitute for lost wages will be seriously
harmed during the delay” and this can be said
of unnecessary remands. One issue for review
is the most significant that is the “CUE” and
“Extra-schedular” issue of 2014, the court has a
responsibility to offer guidance on the impact of
that CUE and agency responsibility if it is truly
“Pro-claimant” and “Non-adversarial” to
acknowledge evidence favorable to the veteran,
and as the Federal Circuit stated “Veterans
benefits are non-discretionary, statutorily
mandated then it has a responsibility to grant
them. In a case where errors and delays have
been numerous, where questionable decisions

are made by claimant’s counsel, an exceptional
burden has been placed on this veteran, the
substance of a CUE and denial of a
Constitutionally protected entitlement for over
20 years, has also been a burden, and to now
contemplate that frivolous remands might lead
to a case being decided (dismissed) if I don’t
survive. How many Veterans have been
impacted by this type of bias, and how many
more Iwill be impacted when the courts defer tol
an administrative agency willing to go to this
extent to deny benefits established by evidence.
“Auer” must be overturned.

CONCLUSION
The Writ for Certiorai should be granted.

Respectfully submitted,

Paul E. Robinson v'iPf£)
June 1, 2021

